No.
IN THE
SUPREME COURT OF THE UNITED STATES
IN RE: WILMA PENNINGTON-THURMAN
DEBTOR
WILMA PENNINGTON-THURMAN
PETITIONER
vs.
FEDERAL HOME LOAN MORTGAGE CORPORATION,
MILLSAP & SINGER, LLC,
BANK OF AMERICA, N. A.
RESPONDENTS)
PROOF OF SERVICE
I, Wilma Pennington-Thurman, do swear or declare that on this date, June 28,2021, as required
by Supreme Court Rule291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. The names and addresses of those served
are as fo!lows:_Brian C. Walsh
BRYAN CAVE LIGHTON PAISNER One Metropolitan Square, 211 N. Broadway, St. Lotus,
Mo 63102
Charles S. Pullium III
Millsap & Singer, LLC 612 Spirit Drive, St. Louis, Mo 63005
I declare under penalty of perjury that the foregoing is true and correct. Executed on June 28,
2021.

